SnfEtye
Supreme Court of tfjc fHniteti States

PROOF OF SERVICE
I, Adesijuola Ogunjobi, do swear or declare that on this date,
February 19, 2021 , as required by Supreme Court Rule 29 I have
served the enclosed PETITION FOR A WRIT OF MANDAMUS on
each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by
delivery to a third-party commercial carrier for delivery within 3
calendar days.
The names and addresses of those served are as follows^
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530

*

,wN»

United States Attorney’s Office for Northern District of California
Federal Courthouse
450 Golden Gate Avenue
San Francisco, CA 94102

I declare under penalty of perjury that the foregoing is true and
correct.
Executed on March 9, 2021

/s/ Adesijuola Ogunjobi

